CERTIFICATE OF COMPLIANCE
No. 19-1299
In the Supreme Court of the United States
THE CHAMBERLAIN GROUP, INC.,
Petitioner,
v.
TECHTRONIC INDUSTRIES CO. LTD., TECHTRONIC INDUSTRIES NORTH AMERICA, INC.,
ONE WORLD TECHNOLOGIES, INC., OWT INDUSTRIES, INC., RYOBI TECHNOLOGIES, INC.,
Respondents.

As required by Supreme Court Rule 33.1(h), I, Jeremy Cooper Doerre, Counsel
of Record for Amici Curiae the Honorable Randall R. Rader (ret.) and ChargePoint,
Inc., and a member of the Bar of this Court, do hereby certify that the Brief of the
Honorable Randall R. Rader (ret.) and ChargePoint, Inc. as Amici Curiae Supporting
Petitioner contains 5,998 words, excluding the parts of the document exempted by
Supreme Court Rule 33.1(d), and complies with the word limitations set out in Rule
33.1(g).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on July 8, 2020
Jeremy Cooper Doerre
Tillman Wright, PLLC
3440 Toringdon Way, Ste. 310
Charlotte, NC 28277
jdoerre@ti-law.com
(704) 248-4883

